September 2009
Report No. AUD-09-023


Material Loss Review of Silver Falls
Bank, Silverton, Oregon




            AUDIT REPORT
                                              Report No. AUD-09-023                                                                            September 2009

                                              Material Loss Review of Silver Falls Bank,
                                              Silverton, Oregon
  Federal Deposit Insurance Corporation

                                              Audit Results
Why We Did The Audit
                                              Causes of Failure and Material Loss - Silver Falls failed due to a significant lack of risk management controls.
On February 20, 2009, the Oregon              Bank management had an aggressive risk appetite toward speculative ADC loans without adequate underwriting
Department of Consumer and Business           and credit administration practices and without regard to the risks posed by its ADC concentration. Silver Falls’
Services (ODCBS) closed Silver Falls          management rapidly increased its ADC loan portfolio through weak underwriting and out-of-area lending and
Bank, Silverton, Oregon (Silver Falls)        relied on non-core funding to fuel the growth. By 2007, ADC lending comprised 71 percent of the bank’s loan
and named the FDIC as receiver. On            portfolio and represented 696 percent of total capital. This ADC concentration ranked Silver Falls the highest in
March 4, 2009, the FDIC notified the          the state of Oregon and the 4th highest of all FDIC-insured institutions in the country. Despite the elevated risk
Office of Inspector General (OIG) that        profile, the bank’s allowance for loan and lease losses and capital levels were typically below those at its peer
Silver Falls’ total assets at closing were    institutions. When the real estate housing market in the bank’s lending areas began declining in the latter part of
$138.7 million and the material loss to       2007, the bank was slow to recognize the downturn and continued originating ADC loans. As the Oregon real
the Deposit Insurance Fund (DIF) was          estate market continued spiraling downward in 2008, the result was the swift decline of the bank as losses
$48.6 million. Silver Falls was the first     mounted and capital was depleted. At a January 2009 examination, the FDIC found significant deterioration of
FDIC-insured bank to fail in Oregon           the bank’s condition and determined that the bank was not viable without a capital infusion, leading to its closure
since 1987. As required by                    in February 2009.
section 38(k) of the Federal Deposit
Insurance (FDI) Act, the OIG                  Assessment of FDIC Supervision and Implementation of PCA - Over the history of Silver Falls, the FDIC
conducted a material loss review of the       and ODCBS provided supervisory oversight in many ways, including risk management examinations, visitations,
failure of Silver Falls.                      and offsite monitoring. Generally, we found that examiners identified the emerging risks in the bank’s loan
                                              portfolio as early as 2003 through examinations and offsite monitoring and made numerous recommendations to
The audit objectives were to
                                              bank management to diversify the loan portfolio and better manage the risks. The bank was well-rated at the
(1) determine the causes of the
                                              2004, 2005, and 2007 examinations although the loan portfolio had underwriting weaknesses and significant
financial institution’s failure and
                                              concentrations in ADC lending. From 2002 through the latter part of 2007, the Oregon real estate market was
resulting material loss to the DIF and
                                              robust, which helped to mask the fact that the bank’s risk level was elevated.
(2) evaluate the FDIC’s supervision of
the institution, including
                                              Overall, the FDIC brought to management’s attention the critical matters that contributed to the bank’s failure.
implementation of the Prompt
                                              For the most part, bank management did not fully implement examiner recommendations and continued
Corrective Action (PCA) provisions of
                                              increasing its ADC portfolio into 2008 when market conditions caused the bank to curtail its risky lending.
section 38 of the FDI Act.
                                              Because the bank was reporting high net income and capital along with a low level of adversely classified assets,
                                              examiners did not take additional supervisory actions to help address the bank’s risk prior to 2008. At the April
Background                                    2008 examination, after Silver Falls’ loan portfolio began experiencing financial problems, the bank’s composite
                                              rating was downgraded, and eventually, the bank stipulated to a Cease and Desist Order (C&D) that addressed
Silver Falls, headquartered in Silverton,     the excessive concentrations in ADC loans, liberal loan underwriting practices, inadequate credit administration,
Oregon, was a state-chartered bank that       and other safety and soundness issues. The FDIC has authority to take a wide range of supervisory actions.
commenced operations on May 1,                Earlier supervisory actions may have been warranted to address Silver Falls’ elevated risk profile before the
2000. The bank operated two branches,         problems became severe in 2008.
one in Salem, Oregon, and the other in
Oregon City, Oregon (near Portland).          The FDIC complied with the PCA provisions of the FDI Act in its notifications to Silver Falls regarding
Silver Falls stock was quoted on the          deteriorating capital levels. Nevertheless, PCA was not effective in preventing Silver Falls’ failure or limiting
Over the Counter Bulletin Board stock         the loss to the DIF due, in part, to the precipitous decline in the bank’s financial condition in 2008 that limited
exchange, although there was no active        the bank’s options for raising capital.
market for its shares, and most trading
was done through limited private              This report presents the FDIC OIG’s analysis of Silver Falls’ failure and the FDIC’s efforts to ensure Silver
transactions. The bank’s board of             Falls’ management operated the bank in a safe and sound manner. We are not making recommendations.
directors controlled about 24 percent of      Instead, as major causes, trends, and common characteristics of financial institution failures are identified in our
the outstanding stock. The bank did           reviews, we will communicate those to management for its consideration. As resources allow, we may also
not have a holding company and did            conduct more in-depth reviews of specific aspects of the FDIC’s supervision program and make
not pay any cash dividends during its         recommendations, as warranted.
existence.

From its inception, the bank’s business       Management Response
strategy and primary emphasis was in
originating acquisition, development,         On August 28, 2009, the Director, Division of Supervision and Consumer Protection (DSC), provided a written
and construction (ADC) loans with a           response to the draft report. In its response, DSC stated that Silver Falls failed due a significant lack of risk
focus on single-family residential            management controls and an aggressive risk appetite for speculative ADC lending without adequate underwriting
lending. The bank experienced                 and credit administration practices. DSC’s statement was consistent with the OIG’s finding of the cause of
significant growth from 2004 to 2007 -        failure.
almost tripling its loan portfolio from
$45 million to $131 million during that       With respect to the FDIC’s supervision of Silver Falls, DSC stated that FDIC and ODCBS examiners identified
time. By September 30, 2008,                  the emerging risks in Silver Falls’ loan portfolio, as early as 2003, and made numerous recommendations to
approximately 96 percent of the bank’s        diversify the loan portfolio and better manage risk. DSC also noted that examiners took action in 2008 by
loan portfolio consisted of loans             downgrading Silver Falls’ ratings, based on its deteriorating financial condition, and executing a C&D that
secured by real estate throughout the         addressed ADC concentrations, liberal loan underwriting practices, and inadequate credit administration. DSC
state of Oregon.                              acknowledged our findings that earlier supervisory action may have been warranted based on Silver Falls’ high-
                                              risk profile.
 To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                    Page

BACKGROUND                                                                    2

CAUSES OF FAILURE AND MATERIAL LOSS                                           4
  Lack of Risk Diversification                                                5
  Weak Underwriting and Poor Loan Administration                              8
  Heavy Reliance on Wholesale Funding                                        11

ASSESSMENT OF FDIC SUPERVISION                                               13
  Historical Snapshot of Supervision                                         13
  OIG Assessment of FDIC Supervision                                         15

IMPLEMENTATION OF PCA                                                        16

CORPORATION COMMENTS                                                         17

APPENDICES
   1. OBJECTIVES, SCOPE, AND METHODOLOGY                                     18
   2. GLOSSARY OF TERMS                                                      20
   3. SUMMARY OF ROE FINDINGS AND RECOMMENDATIONS                            21
   4. CORPORATION COMMENTS                                                   25
   5. ACRONYMS IN THE REPORT                                                 26

TABLES
  1. Snapshot of Silver Falls’ Financial Condition                            3
  2. The Bank’s Cost of Funds Compared to Peer Group                         13
  3. Supervisory History of Silver Falls                                     14
  4. ADC, ALLL, and Tier 1 Capital Ratios Compared to Peer                   16

FIGURES
   1. Silver Falls’ ROA Compared to Peer Group                                4
   2. Comparison of the Bank’s ADC Loans as a Percentage of Total Capital     5
   3. Price Index of Oregon Homes                                             7
   4. Loan Originations by Year                                               8
   5. Location of Silver Falls Bank                                          11
   6. Comparison of the Bank’s Net Non-Core Funding Dependence Ratio to
      Peer                                                                   12
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     September 1, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Silver Falls Bank, Silverton,
                                          Oregon (Report No. AUD-09-023)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of Silver Falls
Bank (Silver Falls), Silverton, Oregon. On February 20, 2009, the Oregon Department of
Consumer and Business Services (ODCBS) closed the institution and named the FDIC as
receiver. On March 4, 2009, the FDIC notified the OIG that Silver Falls’ total assets at
closing were $138.7 million and the material loss to the Deposit Insurance Fund (DIF)
was $48.6 million. Silver Falls was the first FDIC-insured bank to fail in the state of
Oregon since 1987.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology.
Appendix 2 contains a glossary of terms, and Appendix 5 contains a list of acronyms
used in the report.

1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of Silver Falls’ failure and the FDIC’s
    efforts to ensure Silver Falls’ management operated the bank in a safe and sound manner.
    We are not making recommendations. Instead, as major causes, trends, and common
    characteristics of financial institution failures are identified in our reviews, we will
    communicate those to management for its consideration. As resources allow, we may
    also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
    program and make recommendations, as warranted.


BACKGROUND

    Silver Falls was a state-chartered bank that began operations on May 1, 2000. Silver
    Falls, which was headquartered in Silverton, Oregon:

       •   operated two branches, one in Salem, Oregon, and the other in Oregon City,
           Oregon (near Portland);

       •   was listed on the Over the Counter Bulletin Board stock exchange, although there
           was no active market for its shares, and most trading was done through limited
           private transactions;

       •   did not have a holding company and did not pay any cash dividends during its
           existence; and

       •   specialized in commercial real estate (CRE) lending with a particular focus on
           single family residential acquisition, development, and construction (ADC) loans.

    A snapshot of Silver Falls’ financial condition, as of December 2008, and for the
    4 preceding calendar years is presented in Table 1, which follows.




                                                 2
Table 1: Snapshot of Silver Falls’ Financial Condition
                                           12/31/2008       12/31/2007    12/31/2006    12/31/2005   12/31/2004
Total Assets ($000s)                        $134,206         $139,220      $99,635       $83,003      $56,975
Total Loans ($000s)                         $113,967         $131,154      $92,484       $73,957      $45,745
Total Deposits ($000)                       $115,976         $109,596      $80,841       $69,363      $49,336
Loan Growth Rate                             (18)%             42%           25%           62%           8%
Tier 1 Leverage Capital Ratio (%)             2.05             8.81          10.33         10.11        12.68
Return on Assets (%)                         (6.31)            1.66           1.85          1.50        1.52
Past-Due & Nonaccrual Loans/Avg. Loans      36.09%           4.34%           1.71%        1.12%        0.00%
Net Loss/Avg. Total Loans & Leases           4.16%           0.19%           0.00%        0.07%        0.02%
Loan Mix (% of Loans):
All Loans Secured by Real Estate            95.17%          91.63%          91.15%       87.40%       84.66%
 Construction and Development               63.66%          62.53%          52.31%       42.89%       27.70%
 CRE - Nonfarm/Nonresidential               14.05%           9.90%          13.07%       16.74%       21.72%
 Multifamily Residential Real Estate         6.67%          14.30%          18.88%       18.61%       21.11%
 1-4 Family Residential                       10%              4%              6%          8%          11%
Commercial and Industrial Loans               4%              7%              7%          11%          13%
Funding:
Net Loans & Leases/Deposits                 91.61%         118.27%         113.30%      105.56%       91.54%
Core Deposits/Total Assets                  64.63%          63.16%            66%        67.32%       75.02%
Examination Information                     4/14/08         4/23/07         9/26/05       4/5/04      3/17/03
Component/Composite Ratings                444442/4        222122/2        222122/2     222222/2     233332/3
Adversely Classified Loans/Total loans      10.31%           0.76%           1.39%        4.44%        6.67%
Source: Uniform Bank Performance Report (UBPR) data and Reports of Examination (ROE).



Prior to 2008, Silver Falls’ financial results were largely favorable as the Oregon housing
market continued to realize a healthy annual appreciation. From 2004 through 2007,
Silver Falls’ return on assets (ROA) ranged from 1.52 percent to 1.85 percent, which was
well above its peer group average, as shown in Figure 1, which follows.




                                                        3
                         Figure 1: Silver Falls' ROA Compared to Peer Group
                                (Based on December 2004-December 2008 Data)

                 3

                 2

                 1

                 0
                      2004      2005          2006           2007             2008
                 -1
       Percent




                                                                                       Silver Falls
                 -2
                                                                                       Peer Average
                 -3

                 -4

                 -5

                 -6

                 -7


    Source: UBPRs.


    When the residential real estate market throughout Oregon began declining in the latter
    half of 2007, Silver Falls’ loan portfolio quickly began experiencing problems due to its
    high dependency on the real estate market. In 2008, loan losses were severe, and the
    bank’s ROA plummeted.


CAUSES OF FAILURE AND MATERIAL LOSS

    Silver Falls failed due to a significant lack of risk management by its board of directors
    (BOD) and senior management. Bank management had an aggressive growth strategy
    focused on increasing its ADC loan portfolio and, as a result, the bank became heavily
    concentrated in, and very dependent on, the housing market in Oregon. Further, the
    bank’s risk profile was increased by weak underwriting and credit administration
    practices. Because the loan portfolio was highly concentrated in CRE, the bank was
    sensitive to the fluctuations in the real estate market. Additionally, to a significant
    degree, Silver Falls used high-cost non-core deposits and borrowings to fund its ADC
    loan portfolio. When the Oregon housing market performed well, as it did from 2000
    until 2007, the bank was reporting high earnings. However, when the housing market
    experienced a precipitous decline beginning in the fourth quarter of 2007, adversely
    classified loans increased, losses mounted, and capital became strained in 2008. In
    January 2009, regulators determined that the bank was Critically Undercapitalized, for
    PCA purposes, and the bank was subsequently closed in February 2009.




                                                     4
Lack of Risk Diversification

       Our analysis of Silver Falls’ loan portfolio, from 2001 until it failed, indicated that bank
       management did not provide adequate attention to risk diversification, and, as a result,
       excessive concentrations occurred in the bank’s ADC loan portfolio. Specifically, Silver
       Falls’ ADC loan portfolio increased from $10.7 million in 2001 to approximately
       $82 million by year-end 2007. This concentration in a higher-risk market segment,
       coupled with weak underwriting standards and poor credit administration practices, led to
       significant losses in Silver Falls’ ADC portfolio when the Oregon real estate market
       deteriorated.

       Silver Falls’ management rapidly increased its ADC loan portfolio, without due regard to
       the risks associated with that business strategy. In 2001, shortly after commencing
       operations, ADC loans represented about 44 percent of its loan portfolio and about
       230 percent of the bank’s total capital. These percentages were very high in comparison
       to Silver Falls’ peer group. For example, in 2001, ADC loans averaged 9 percent of the
       loan portfolio and about 46 percent of total capital for banks in Silver Falls’ peer group.
       By 2004, Silver Falls’ ADC portfolio represented 419 percent of total capital, and bank
       management continued the business strategy of concentrating its portfolio in high-risk
       ADC loans through 2007. Figure 2, which follows, shows Silver Falls’ increasing
       concentration of ADC loans as a percentage of total capital, compared to its peer group.


                          Figure 2: Comparison of the Bank's ADC Loans as a
                                      Percentage of Total Capital
            800%

                                                                                  690%
            700%

            600%
                                                                     495%
            500%
                                                    419%                                        Silver Falls
            400%                                                                                Peer

            300%
                        193%
            200%                     166%
                                                                                         108%
            100%                            58%                66%          61%
                               16%
              0%
                        Dec-03       Dec-04          Dec-05          Dec-06       Dec-07
                                                  Year-End Date

       Source: UBPRs.




                                                           5
According to examiner statements in the April 2008 ROE, the bank’s ADC concentration
was the highest in Oregon, by a 2-to-1 margin; the highest in the FDIC’s San Francisco
Region; and the fourth highest in the nation.

The FDIC’s Risk Management Manual of Examination Policies (Examination Manual)
provides the following guidance to examiners regarding banks’ concentrations of credit:

       Concentrations generally are not inherently bad, but do add a dimension of risk
       which the management of the institution should consider when formulating plans
       and policies. In formulating these policies, management should, at a minimum,
       address goals for portfolio mix and limits within the loan and other asset
       categories. The institution’s business strategy, management expertise and
       location should be considered when reviewing the policy. Management should
       also consider the need to track and monitor the economic and financial condition
       of specific geographic locations, industries and groups of borrowers in which the
       bank has invested heavily. All concentrations should be monitored closely by
       management and receive a more in depth review than the diversified portions of
       the institution’s assets. Failure to monitor concentrations can result in
       management being unaware how significant economic events might impact the
       overall portfolio. This will also allow management to consider areas where
       concentration reductions may be necessary. Management and the board can
       monitor any reduction program using accurate concentration reports. If
       management is not properly monitoring concentration levels and limits, examiners
       may consider criticizing management.

Our review of examiner workpapers and interviews with FDIC and ODCBS examiners
shows that Silver Falls’ management was not adequately monitoring and controlling its
concentration risks. Further, Silver Falls did not adequately address goals for its portfolio
mix and limits as described in its loan policy. When examinations before 2008 noted that
ADC loans exceeded the bank’s internal limits, bank management would increase its
internal limits to promote compliance rather than reduce its ADC concentration.
Examiners found during the 2008 examination that the ADC concentration was 528
percent of total capital, which exceeded even the “liberalized” 490 percent internal
maximum established by bank management.

With the bank’s high level of real estate loans, management had positioned the bank to be
vulnerable to a downturn in the real estate market. From 2000 until the third quarter of
2007, the Oregon real estate market experienced continuing increases in home prices. As
a result, the bank’s strategy of focusing on ADC lending appeared to work well as loans
were paying off, properties were selling, and little-to-none of its loan portfolio
experienced loss. However, in the middle of 2007, the Oregon real estate market peaked
and began a precipitous drop, with real estate values dropping about 20 percent in a little
over a year, as shown in Figure 3, which follows.




                                               6
Figure 3: Price Index of Oregon Homes
 Index level
 200
                                                                  Q207: 186.43
 190
                                                                                          Q109:
 180
                 Economy.com Case-Shiller                                                 152.00
 170             Home Price Index: Oregon
 160
                                                                        Q307: 186.06
                 S&P/Case-Shiller Home Price
 150
                 Index: Portland
 140
                                                                                 Q109: 150.79
 130

 120

 110

 100
       2000     2001       2002       2003       2004     2005   2006    2007      2008      2009

 Source: Economy.com, S&P/Haver Analytics.
 Note: S&P/Case-Shiller Home Price Index: (Jan-00=100).




Silver Falls continued to increase its loan portfolio – primarily ADC loans – during 2007,
increasing it by 40 percent even as market conditions were declining. Shortly after the
bank failed, we reviewed the bank’s loan trial balance as of February 2009 and
determined that over 64 percent of the loans on the bank’s books had been originated in
either 2007 or 2008 – at the peak of the market or shortly after the market had begun to
decline in Oregon (see Figure 4, which follows).




                                                     7
                                            Figure 4: Loan Originations by Year

          Millions   $70

                     $60

                     $50

                     $40

                     $30

                     $20

                     $10

                      $-
                           2001      2002         2003   2004   2005    2006      2007      2008      2009

      Source: Silver Falls’ loan trial balance.

      In hindsight, such an increase in loan originations, just at the time of a market correction,
      exacerbated Silver Falls’ already troubled ADC loan portfolio. During this period, real
      estate values used to establish loan-to-value (LTV) ratios were at or near their peak, and
      as the collateral values decreased, many loans became troubled.

      Many of the loans in Silver Falls’ real estate loan portfolio were considered speculative
      because much of the real estate was unleased or unsold at the time of the loan
      commitment. As a result, the bank was dependent on the market’s abilities to absorb the
      unleased or unsold properties for borrower repayment. This risky strategy meant that in
      order to avoid loan problems, the bank would need to be especially vigilant about its
      underwriting standards.


Weak Underwriting and Poor Loan Administration

      Weaknesses in loan underwriting and credit administration used by bank management to
      extend and monitor credit in the CRE and ADC markets was a contributing factor to the
      bank’s failure. Because the majority of the bank’s portfolio was originated with weak
      underwriting protection, much of the risk associated with the loan portfolio tended to rest
      with the bank rather than the borrower. ROEs, as early as 2003, indicated that bank
      management needed to strengthen its loan underwriting and credit administration
      practices. The 2007 and 2008 ROEs made specific recommendations that management
      place more emphasis on prudent loan underwriting and monitoring.




                                                          8
Regarding ADC lending, FDIC guidance to examiners stresses that prudent lending
practices should include, among other things, the following:

   •   Feasibility studies, risk analyses, and sensitivity of income projections to
       economic variables.

   •   Minimum requirement for initial investment and equity maintained by the
       borrower.

   •   Standards for net worth, cash flow, and debt service coverage of the borrower or
       underlying property.

   •   Standards for the use of interest reserves or stipulation that interest reserves will
       not be used.

   •   Standards for the level of loans on speculative properties relative to capital.

   •   Pre-sale and minimum unit release requirements for non-income producing
       property loans.

   •   Minimum covenants for loan agreements, such as financial statement
       requirements.

   •   Value and marketability of the mortgaged property.

   •   Secondary sources of repayment.

Our review of ROEs and interviews with FDIC and ODCBS examiners and FDIC
resolution personnel indicated that, to varying degrees, Silver Falls’ management did not
adequately implement these prudent lending practices. For example, the bank made a
$1.7 million loan for 1 year in November 2006 for the construction of a 20-unit
condominium project. In the April 2008 ROE, examiners noted the following loan
underwriting and administration deficiencies with respect to this loan:

   •   The project was not completed within the year, and the loan was extended and
       kept current by allowing the borrower to service the debt with another
       construction line of credit.

   •   Site inspection reports were not always in the file. One inspection report
       described the project as 95-percent complete, but an appraisal performed after the
       inspection report described the project as 80-percent complete.

   •   The loan file lacked information to assess the financial capacity of the borrower
       and guarantor. Also, the file raised questions about the borrower’s cash flow.




                                               9
   •   Even though the project was past-due and the collateral appeared deficient, the
       bank had not developed a collateral analysis or action plan to correct the
       problems.

Moreover, according to FDIC resolution personnel, as of July 31, 2009, not a single
condominium unit had been sold, and construction was only about 80 to 85 percent
complete.

Based on our review, the deficiencies noted above were not uncommon in Silver Falls’
ADC portfolio. Further, according to examiners, even though 96 percent of the bank’s
loans were real estate-related, bank management did not adequately monitor the real
estate markets and local economic conditions within its trade areas to ensure that real
estate lending policies and practices were appropriate for market conditions until 2008,
when it was too late.

According to the 2008 ROE, Silver Falls’ management did not institute practices to
ensure that credit analysis at loan origination was commensurate with the complexity and
risk of the credit. The ROE also noted that improvements were needed to ensure
management had the tools necessary to monitor and measure the risks inherent to
construction lending. Specifically, management did not develop policies, procedures, and
reports to better control out-of-area lending and the use of loan brokers, interest reserves,
and loan extensions. Although Silver Falls had appropriate policy guidelines, they were
not always followed for activities such as construction draw procedures, loan extensions,
and environmental risk assessments. Based on the significant volume of risk-rating
downgrades and the number and severity of systemic criticisms, management failed to
implement a more effective loan review system to better monitor all activities within the
lending function, including loan grading. Of particular concern was the bank’s lack of an
effective problem loan report to address loan problems early. Although the bank had a
Problem Loan report, examiners noted that the report was rarely populated with
information necessary to get a clear depiction of credit relationships and was often void
of any written plan of action.

Examiners also identified weaknesses in monitoring construction projects. Specifically,
Silver Falls did not always perform periodic inspections during the construction phase
and did not have adequate funds disbursement controls. As opportunities for growth
were limited in its primary lending area, the bank expanded its lending to other parts of
Oregon, which made monitoring projects more difficult. To illustrate, the bank was
located just north of Salem, Oregon (see Figure 5, which follows).




                                               10
                    Figure 5: Location of Silver Falls Bank




                    Source: Google Maps.



      However, in 2008, about 11 percent of the bank’s loan portfolio was to borrowers in the
      Bend, Oregon, market (approximately 130 miles away), and 9 percent of the portfolio
      was in the Medford, Oregon, market (approximately 240 miles away). The bank also had
      11 percent of its loans concentrated on the Oregon coast and 21 percent in Portland,
      which examiners indicated were outside the bank’s trade area. Examiners also indicated
      that the number of loan administration problems was higher for the out-of-area loans.


Heavy Reliance on Wholesale Funding

      Beginning in 2005, Silver Falls became increasingly dependent on non-core deposits to
      fund its aggressive loan growth. By December 31, 2007, the bank’s loan-to-deposit ratio
      was 118 percent, which indicates that Silver Falls needed to borrow money to fund its
      loans. Further, as shown in Figure 6, which follows, Silver Falls’ non-core funding
      dependency was consistently higher than its peer group average from 2005 until it failed.




                                                   11
                  Figure 6: Comparison of the Bank's Net Non-Core Funding
                                 Dependence Ratio to Peer

            50%
            45%
            40%
            35%
            30%
    Ratio




                                                                                                   Silver Falls
            25%
                                                                                                   Peer
            20%
            15%
            10%
            5%
            0%
                  Dec-04          Dec-05          Dec-06          Dec-07          Dec-08
                                               Quarter Ended


Source: UBPRs.



Moreover, Silver Falls’ extensive use of non-core deposits resulted in a higher cost of
funds3 than its peers, as shown in Table 2, which follows. Specifically, from 2005 until it
failed, Silver Falls’ cost of funds ranged from 53 to 106 basis points higher than its peer
group. The bank’s cost of funds was also higher than the average cost for banks in
Oregon. For example, in 2007, the average cost of funds for the banks in Oregon was
2.80 percent, while Silver Falls averaged 3.96 percent – 116 basis points higher. In our
opinion, Silver Falls’ higher cost of funds negatively impacted the bank’s profitability
and appeared to have encouraged higher-risk lending to be profitable.




3
 As used in this report, the cost of funds was determined by using interest expense as a percentage of
average earning assets.



                                                       12
                Table 2: The Bank’s Cost of Funds Compared to Peer Group
                                 Interest Expense
                                                                      Average for
                                  as a Percent of   Peer Group
                  Year End                                               Banks
                                 Average Assets –     Average
                                                                       in Oregon
                                    Silver Falls
                     2003              1.91%             1.45%           1.31%
                     2004              1.60%             1.40%           1.08%
                     2005              2.30%             1.77%           1.58%
                     2006              3.27%             2.30%           2.41%
                     2007              3.96%             2.90%           2.80%
                     2008              3.34%             2.30%           2.14%
               Source: UBPRs.



ASSESSMENT OF FDIC SUPERVISION

      Over the life of Silver Falls, the FDIC and ODCBS provided supervisory oversight in
      many ways, including risk management examinations, visitations, and offsite monitoring.
      Overall, the FDIC drew bank management attention to critical matters that contributed to
      the failure; however, the FDIC did not ensure that the bank addressed its risks before the
      bank began experiencing financial deterioration. Generally, we found that examiners
      identified emerging risks in the bank’s loan portfolio as early as 2003, through
      examinations and offsite monitoring, and made numerous recommendations to bank
      management to diversify the loan portfolio and better manage the risks associated with its
      ADC lending. For the most part, bank management did not fully implement examiner
      recommendations and continued increasing its ADC portfolio through the use of non-core
      deposits and lending in areas outside its trade area.


Historical Snapshot of Supervision

      The FDIC complied with examination frequency requirements of the FDI Act and, in
      conjunction with the ODCBS, conducted seven examinations and three visitations during
      the history of the bank, as shown in Table 3, which follows.




                                                    13
Table 3: Supervisory History of Silver Falls
                              Supervisory          Supervisory Ratings
         Date                   Activity               (UFIRS)*
     January 2009              Visitation               555552/5
      April 2008           Joint Examination            444442/4
      April 2007           State Examination            222122/2
                                  FDIC
    September 2005            Examination                 222122/2
      April 2004           Joint Examination              222222/2
     October 2003              Visitation                 233332/3
                                  FDIC
      March 2003              Examination                 233332/3
     February 2002         State Examination              122122/2
      March 2001           Joint Examination              122212/2
      August 2000              Visitation                 Not rated
Source: The FDIC’s Virtual Supervisory Information on the Net database.
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.



After the 2003 examination, the bank agreed to a Memorandum of Understanding (MOU)
to address management and asset quality weaknesses, including poor loan policies,
underwriting and credit administration weaknesses, and a lack of risk diversification due
to the bank’s concentration of ADC loans. After the 2004 examination, the FDIC
terminated the MOU when examiners found that oversight by Silver Falls’ BOD had
improved and asset quality and underwriting practices were strengthened. Additionally,
the 2004 ROE noted that management had prepared a risk segmentation analysis of its
construction and land development portfolio in order to better assess risk and reminded
the bank that this type of analysis should be ongoing. The bank received a composite 2
rating at the 2004, 2005, and 2007 examinations. At each of these examinations, FDIC
and ODCBS examiners made numerous recommendations, largely addressing risk
management deficiencies at the bank, including the high concentration of ADC loans and
weak underwriting and loan administration practices (see Appendix 3 for details of
examiner comments and recommendations).

During the April 2008 examination, in which the bank was downgraded to a composite 4
rating, FDIC and state examiners noted that the bank’s overall condition was
unsatisfactory due to inadequate BOD and management oversight. The ROE also noted
that “the latent risk in the bank’s portfolio has been realized with the downturn in the
housing market.” The bank was presented with a Cease and Desist Order (C&D) in June
2008 to address, among other things, its ADC concentrations and poor underwriting and
credit administration practices. Bank management initially resisted signing the C&D but
eventually stipulated to it in November 2008. Also, in November 2008, the bank
submitted an application to the Troubled Asset Relief Program (TARP) Capital Purchase


                                                     14
      Program. After reviewing the application and other materials provided, the FDIC asked
      the bank to withdraw its application due to the significant financial deterioration of the
      bank and its likely inability to raise capital.

      In January 2009, examiners performed a targeted loan review (visitation) and concluded
      that the deterioration of the loan portfolio was capsizing the bank as the volume of
      adversely classified assets and loan losses had depleted the bank’s allowance for loan and
      lease losses (ALLL) and was straining its capital. Further, examiners noted that the
      institution’s deterioration was largely the result of operating with a high level of ADC
      lending in a declining real estate market. As of November 30, 2008, ADC lending
      represented over 750 percent of Tier 1 Capital. The bank’s problems were compounded
      by wholesale credit administration deficiencies due to management’s failure to strengthen
      oversight of the credit function. As a result of this review, on February 2, 2009, the
      FDIC notified the bank that its PCA category was Critically Undercapitalized. With no
      prospects of a capital infusion, the bank was closed on February 20, 2009.


OIG Assessment of FDIC Supervision

      Although FDIC and ODCBS examiners recognized early warning signs and continually
      reported on the risky practices used by the bank, it was allowed to continue its
      concentration of ADC loans until after the April 2008 examination. In our opinion,
      earlier corrective action was needed before serious asset quality problems developed in
      the loan portfolio. Until the 3rd quarter of 2007, the Oregon real estate market had been
      performing well, which masked the bank’s elevated risks. Further, because the bank was
      reporting high net income and capital along with a low level of adversely classified
      assets, the FDIC and ODCBS rated the bank a composite 2 and did not take stronger
      supervisory actions to curtail the bank’s risk appetite and ADC concentrations until the
      April 2008 examination when Silver Falls’ loan portfolio began experiencing financial
      problems. By 2008, the bank’s problems had become severe, and failure appeared
      unavoidable, absent a massive capital infusion.

      Examiners identified Silver Falls’ loan concentrations as a potential high-risk area of
      concern in ROEs and meetings with bank management as early as 2003. However,
      despite repeated assurances by Silver Falls’ management that it would take corrective
      actions, no comprehensive action was taken. For example, the April 2004 ROE stated
      that risk management processes were inadequate related to economic conditions and
      concentrations. Based on our review, we concluded that Silver Falls did not give
      adequate attention to its concentration risk and continued positioning the bank to be
      exposed in an economic downturn. Examiners we interviewed mentioned that
      deficiencies continually existed in the bank’s monitoring and reporting processes for
      concentrations. However, as previously noted, when examiners criticized the bank for
      exceeding its own liberal ADC limits, bank management would increase policy limits to
      promote compliance rather than reduce the risk profile. Nonetheless, the FDIC could
      have taken stronger actions before 2008 to mitigate the bank’s ADC risk exposure
      inherent in its ADC loan portfolio.



                                                    15
    Despite the poor risk management practices, most of the ADC loans at the bank were
    paying as agreed to by the borrower or had sufficient collateral protection until the end of
    2007. For example, the bank reported no non-current loans in 2005 and 2006. However,
    by 2008, non-current loans totaled over $30.4 million (almost 30 percent of the loan
    portfolio). The precipitous decline in real estate values in Oregon, particularly those
    involving ADC loans, had a tremendous effect on the bank. In our opinion, the bank’s
    high-risk profile warranted earlier administrative actions such as requiring the bank to
    implement more stringent underwriting standards or requiring additional capital. We
    compared the bank’s ADC concentration, ALLL coverage, and Tier 1 Capital to banks in
    its peer group as shown in Table 4, which follows.

    Table 4: ADC, ALLL, and Tier 1 Capital Ratios Compared to Peer
                                           ALLL Coverage as a
             ADC Concentrations as a
                                           Percentage of Total           Tier 1 Capital
             Percentage of Total Loans
                                                 Loans
              2005      2006     2007     2005     2006    2007     2005      2006        2007
     Silver
     Falls  42.89% 52.31% 62.53% 0.99% 0.96% 1.17% 10.11% 10.33% 8.81%
     Bank
     Peer
             9.32% 8.80% 15.00% 1.30% 1.22% 1.19% 10.22% 9.82% 9.60%
     Group
     Source: UBPRs.


    As Table 4 shows, Silver Falls’ ADC loan concentrations as a percentage of total loans in
    2005 through 2007 were four to six times that of the bank’s peer group. In addition, as
    previously discussed in this report, underwriting and credit administration at the bank
    were weak. Despite its risky profile, Silver Falls’ ALLL coverage was less than coverage
    by banks in its peer group for all 3 years. Moreover, its Tier 1 Capital ratio for 2 of the
    3 years was less than peer. In our opinion, the combination of ADC concentrations and
    weak underwriting and credit administration practices should have resulted in a higher
    ALLL and/or increased capital. Prior to the 2008 ROE, examiners were generally not
    critical of the bank’s ALLL or capital.

    In conclusion, although examiners recognized and reported on the risks inherent in Silver
    Falls’ loan portfolio, in retrospect, more could have been done to ensure that timely
    supervisory was taken to address the bank’s inherent risks before financial deterioration
    occurred.


IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve the problems of insured depository institutions at the
    least possible long-term loss to the DIF. PCA provides federal banking agencies with the
    authority to take certain actions when an institution’s capital drops to certain levels. We
    concluded that the FDIC used this authority in an appropriate and timely manner under



                                                  16
    PCA. The April 2008 ROE stated that the bank’s capital ratio had declined to
    8.25 percent, which was well below the bank’s internal minimum threshold of
    9.0 percent. Similarly, the Total Risk-Based Capital ratio had declined to 9.65 percent.
    As a result of the Total Risk-Based Capital ratio falling below 10.0 percent, the bank was
    categorized as Adequately Capitalized for PCA purposes and was notified that it may not
    accept, renew, or roll over any brokered deposit unless the institution had been granted a
    waiver by the FDIC. As a result of the January 2009 targeted loan review, the FDIC
    notified the bank on February 2, 2009 that it was considered Critically Undercapitalized
    and was subject to the mandatory requirements of section 38(k) of the FDI Act, including
    submission of a capital restoration plan. Specifically, the bank’s ratios were:

           Tier 1 Leverage                       1.38%
           Tier 1 Risk-Based Capital Ratio:      1.41%
           Total Risk-Based Capital Ratio:       2.70%

    Although the FDIC complied with the PCA provisions of the FDI Act, PCA was not
    effective at limiting the loss to the DIF. PCA’s focus is on capital, and capital can be a
    lagging indicator of an institution’s financial health as was the case with Silver Falls.
    Bank management delayed the recognition of problems and ultimately the deterioration
    of earnings and capital. By the time Silver Falls’ capital level fell below the required
    threshold necessary to implement stronger PCA provisions at the end of 2008, the bank’s
    condition had deteriorated to the point at which the institution was not viable absent a
    massive capital infusion.


CORPORATION COMMENTS

    On August 28, 2009, the Director, DSC, provided a written response to the draft report.
    DSC’s response is provided in its entirety as Appendix 4 of this report. In its response,
    DSC stated that Silver Falls failed due to a significant lack of risk management controls
    and an aggressive risk appetite for speculative ADC lending without adequate
    underwriting and credit administration practices. DSC’s statement was consistent with
    the OIG’s finding of the cause of failure.

    With respect to the FDIC’s supervision of Silver Falls, DSC stated that FDIC and
    ODCBS examiners had identified the emerging risks in the bank’s loan portfolio, as early
    as 2003, and made numerous recommendations to diversify the loan portfolio and better
    manage risk. DSC also noted that examiners took appropriate action in 2008 by
    downgrading Silver Falls’ ratings, based on its deteriorating financial condition, and
    executing a C&D Order that addressed ADC concentrations, liberal loan underwriting
    practices, and inadequate credit administration. DSC acknowledged our findings that
    earlier supervisory action may have been warranted based on Silver Falls’ high-risk
    profile.




                                                  17
                                                                                      APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, on or after July 1, 1993, the Inspector General of the appropriate
      federal banking agency shall prepare a report to that agency reviewing the agency’s
      supervision of the institution. The FDI Act requires that the report be completed within
      6 months after it becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from March 2009 to August 2009 in accordance with generally
      accepted government auditing standards. However, due to the limited scope and
      objectives established for material loss reviews, which are generally applied to just one
      financial institution, it may not have been feasible to address certain aspects of the
      standards, as described in the sections that follow.


Scope and Methodology

      The scope of this audit included an analysis of Silver Falls’ operations from April 24,
      2000 until the bank’s failure on February 20, 2009. Our review also entailed an
      evaluation of the regulatory supervision of the institution over the same period.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed ROEs and visitation reports prepared by the FDIC and ODCBS
                 examiners from 2001 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at the FDIC’s San Francisco
                       Regional Office (SFRO) and Portland Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Bank records maintained by DRR in the Dallas, Texas, Regional Office for
                       information that would provide insight into the bank’s failure, various annual
                       reports, and accompanying financial statements.

                   •   Pertinent DSC policies and procedures.



                                                        18
                                                                                      APPENDIX 1


           •   Interviewed the following FDIC officials:

                 •   DSC management in Washington, D.C., and the SFRO.

                 •   DRR officials at the Dallas Regional Office and at the receivership site.

                 •   FDIC examiners from the DSC Portland Field Office, Portland, Oregon, who
                     participated in examinations or reviews of examinations of Silver Falls.

           •   Met with officials from the ODCBS to discuss the historical perspective of the
               institution, its examinations, state banking laws, and other activities regarding the
               ODCBS’s supervision of the bank.

           •   Researched various banking laws and regulations, including State of Oregon laws.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of Silver Falls’
      management controls pertaining to its operations as discussed in this report. For purposes
      of the audit, we did not rely on computer-processed data to support our significant
      findings and conclusions. Our review centered on interviews, ROEs and correspondence,
      and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine
      compliance with certain aspects of the FDI Act. The results of our tests were discussed,
      where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
      related to our objectives in the course of evaluating audit evidence.




                                                      19
                                                                                   APPENDIX 2
                                GLOSSARY OF TERMS


      Term                                              Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to highest)
                    into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and lease
Losses (ALLL)       portfolio (including all binding commitments to lend). To the extent not
                    provided for in a separate liability account, the ALLL should also be sufficient
                    to absorb estimated loan losses associated with off-balance sheet loan
                    instruments such as standby letters of loan.

Concentration       A concentration is a significantly large volume of economically related assets
                    that an institution has advanced or committed to a certain industry, person,
                    entity, or affiliated group. These assets may, in the aggregate, present a
                    substantial risk to the safety and soundness of the institution.

Memorandum of       An informal corrective administrative action for institutions considered to be of
Understanding       supervisory concern, but which have not deteriorated to the point where they
(MOU)               warrant formal administrative action. As a general rule, an MOU is to be
                    considered for all institutions rated a composite 3.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325, subpart B,
(PCA)               of the FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                    325.101, et. seq, implements section 38, Prompt Corrective Action, of the FDI
                    Act, 12 United States Code section 1831(o), by establishing a framework for
                    taking prompt supervisory actions against insured nonmember banks that are
                    less than adequately capitalized. The following terms are used to describe
                    capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action of
                    compliance with the PCA statute with respect to an institution that falls within
                    any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of a financial institution’s financial data
Performance         and ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)       report is produced by the Federal Financial Institutions Examination Council
                    for the use of banking supervisors, bankers, and the general public and is
                    produced quarterly from data reported in Reports of Condition and Income
                    submitted by banks.




                                                20
                                                                           APPENDIX 3

          SUMMARY OF ROE FINDINGS AND RECOMMENDATIONS


FDIC Report of Examination, dated March 17, 2003

Conclusions:
   • BOD oversight has been ineffective.
   • This ineffectiveness has led to unsatisfactory asset quality and the need for
      significant provisions to ALLL.
   • Asset quality deterioration because of management’s ineffective risk controls.

Recommendations:
   • Management needs to more proactively identify portfolio risk and recognize
     losses.
   • Management should implement an effective loan review function.
   • Management needs to strengthen weak loan underwriting and credit
     administration practices, increase the ALLL to an adequate level, document
     liquidity strategies, and address examination recommendations.
   • Management needs to focus on addressing identified deficiencies to build a solid
     foundation before continuing to grow the bank.
   • Management’s credit analysis and presentation in the Loan Approval Sheets
     require improvement.
   • Management should follow its loan policy, including reporting individual and
     aggregate policy exceptions. For construction lending, the bank should
      (1) consistently perform inspections to validate draw requests and document the
     inspections in the loan file; (2) maintain records for the interest reserve separate
     from general construction proceeds to help maintain control over disbursements;
     (3) determine reasons why pre-sold projects are not selling, document the reason,
     and inform the Loan Committee of the change in risk profile; and (4) establish
     reports that monitor the construction and development lending concentration.

In addition, the bank was cited for a contravention of Part 365, Appendix A – Regulatory
Real Estate Lending Standards, in that loans in excess of the bank’s Loan Policy LTV
ratio must be aggregated and reported to the BOD at least quarterly. Several instances
were noted in which policy limitations were exceeded, but loans were not tracked and
aggregated for reporting to the BOD.

Joint Report of Examination, dated April 5, 2004

Conclusions:
   • Overall condition of the bank is satisfactory.
   • Oversight by the BOD is improved.
   • Asset quality and underwriting practices are better.
   • Capital levels are adequate.
   • Risk management processes are inadequate related to economic conditions and
      concentrations.


                                             21
                                                                          APPENDIX 3


Recommendations:
   • Loan policies need the following refinements to further reduce the potential for
      undesirable risk.
         1) Expand guidelines to incorporate the desired quality of financial
             information.
         2) Develop guidelines for granting unsecured credit to commercial
             borrowers.
         3) Refine guidelines to improve the required content of real estate
             evaluations in accordance with the Statement of Policy on Interagency
             Appraisal and Evaluation Guidelines.
         4) Expand appraisal review guidelines to include the procedures for
             correcting identified weaknesses and ordering reappraisals.
         5) Revise construction inspection guidelines to require photographs of the
             inspected work.
         6) Revise other real estate guidelines to require an updated appraisal of real
             estate at the time of acquisition if the existing appraisal is more than
             6 months old.
         7) Develop desired minimum debt service coverage guidelines for nonfarm
             nonresidential real estate and commercial loans.
         8) Establish desired limitations for loan concentrations of credit based on a
             percentage of Tier 1 Capital.
         9) Expand credit review criteria, beyond a credit review at origination, to
             periodically validate risk grade.

FDIC Report of Examination, dated September 26, 2005

Conclusions:
   • Overall condition of the bank remains satisfactory.
   • While the bank has chosen to focus lending in some areas that may be considered
      higher risk, including speculative construction, adversely classified assets have
      continued to decline as a percentage of capital over the prior two examination
      cycles.

Recommendations:
   • Management will need to strengthen policies and procedures to continue
     operating at or near adequate liquidity levels.
   • Establish a policy limit for net non-core funding dependence.
   • Refine policy guidance on requiring a loan review when the loan-to-deposit ratio
     exceeds 90 percent for three consecutive quarters.




                                            22
                                                                           APPENDIX 3


State Report of Examination, dated April 23, 2007

Conclusions:
   • The overall performance of the BOD and management is satisfactory.
   • Higher-risk lending practices require additional monitoring and controls.
   • The high level of loans is secured by CRE.
   • There is a lack of support for primary and secondary sources of repayment.
   • There are large numbers of borrowers and projects located outside the bank’s
      primary market area.
   • There are higher levels of documentation and underwriting deficiencies.
   • Management has not reduced the risk inherent in high concentrations.
   • Management has numerous technical exceptions, poor supporting documentation,
      and errors in the loan files.
   • Loan policy limitations for CRE loans, as a percentage of total loans, have been
      exceeded in all reporting periods since the prior examination.

Recommendations:
   • Management’s higher-risk lending practices require additional monitoring and
     controls.
   • Increased emphasis needs to be placed on prudent underwriting and monitoring.
   • Management is encouraged to implement practices to eliminate the violation of
     rules and regulations.

Joint Report of Examination, dated April 14, 2008

Conclusions:
   • Management’s aggressive risk appetite has elevated the bank’s risk profile to an
      unsatisfactory level.
   • Management’s desire for growth and earnings has resulted in an excessive
      concentration of ADC loans.
   • Risk resulted from out-of-area lending, use of loan brokers, inappropriate interest
      reserve practices, liberal collection processes, and poor risk identification.
   • Borrowers are beginning to exhibit traits that indicate a growing inability to
      perform according to the terms of their debt.
   • Although management’s actions to mitigate risks were viewed as positive, the
      recognition was late in the cycle.
   • The administration of the bank’s construction loan portfolio is less than
      satisfactory.
   • Apparent violation of Part 364 of the FDIC Rules and Regulations as BOD and
      management did not comply with several minimum standards for safety and
      soundness regarding Subsection C, Loan Documentation, and Section F, Asset
      Growth. Loan presentations did not appropriately address all factors needed to
      make an informed loan decision, and the loan portfolio grew at a rapid pace,
      requiring reliance on wholesale funding sources and leveraging capital to


                                             23
                                                                           APPENDIX 3


       unsatisfactory level. Growth was concentrated in residential construction and
       development loans, which have deteriorated to the extent that asset quality is now
       unsatisfactory.

Recommendations:
   • Management should enhance their reporting practices by further segmenting some
     of the loan types and including “guidelines” in the Quarterly Segmentation
     Report.
   • Management should establish additional guidelines for speculative versus pre-sold
     residential loans, aggregate construction loans, and aggregate CRE loans.
   • Documentation of BOD oversight should be enhanced to improve the level of
     concentration risk assumed.
   • Credit analysis should be expanded to incorporate the borrowers’ and guarantors’
     global cash flow.
   • Appraisal review practices should be improved.
   • Management needs to better define the bank’s trading area, permissibility of
     speculative lending, acceptable levels of construction concentrations, accounting
     treatment of non-accrual loans, internal risk grades, insider overdraft levels, and
     the useful life of an appraisal.
   • Management should adhere to the internal loan policies, such as guidance
     pertaining to acceptable timeframes for extensions.
   • The BOD should properly oversee the activities of the bank, including obtaining
     additional information on risk indicators such as loan delinquency.




                                             24
                                                                                                            APPENDIX 4
                            CORPORATION COMMENTS
         inn ¡ ¡¡I             i. r 41.mwiiiu. m ¡¡ ; ¡ ¡;P                                           Ii




FDICI
Federal Deposit Insurance Corpration
550 17l1 Street NW. Wasington. D.C. 2029.999                       Divisin of Supervsion and Cosurner Protecion


                                                                Augus t 28, 2009




TO: Russell A. Rau
                   Assistant Inspector fieneral for Audits

FROM: Sandra L. Thompson
                   Director

SUBJECl: Draft Audit Report Entitled, Material Loss Review of              Silver Falls Bank,
                   Silverton, Oregon (Assignment No. 2009-025)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Depsit
Insurance Corporation's Offce of   Inspector General (OIG) conducted a material loss review of
Silver Falls Bank (SFB), which failed on February 20, 2009. This memoradum is the response
of the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft Audit Report

(Report) received on August 14,2009.

SFB failed due to a significant lack ofrisk management controls and an aggressive risk appetite
for speculative acquisition, development, and construction (ADC) loans without adequate
underwting and credit administration practices. The Reprt states the FDIC and the Oregon
Deparment of Banking and Finance provided supervisory oversight of SFB through risk
management examinations, visitations, and offsite monitoring. During these events, examiners
identified the emerging risks in SFB's loan portfolio, as ealy as 2003, and made numerous
recommendations to diversify the loan portfolio and better manage risk. The Reprt notes that
FDIC brought to management's attention the critical matters that contributed to SFB's failure;
however, SFB's management did not fully implement examiner recommendations and continued
to increase its ADC portfolio.

The Report notes that examiners took appropriate action in 2008 by downgrading SFB's ratings,
based on its deteriorating financial condition, and executing a Cease and Desist Order that
addressed ADC concentrations, liberal   loan underwriting practices, and inadequate credit
administration. However, we acknowledge the Report's findings that earlier superisory action
may have been warranted based on SFB's high-risk profile. The Reprt also notes that the FDIC
complied with the Prompt Corrctive Action provisions of     the Federal Deposit Insurance Act in
its notifications to SFB regarding restrictions and requirements associated with deteriorating
capital levels.


Thank you for the opportunity to review and comment on the Report.




                                                         25
                                                                           APPENDIX 5
                      ACRONYMS IN THE REPORT


Acronym                                   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BOD       Board of Directors
C&D       Cease and Desist Order
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity
          to Market Risk
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FIL       Financial Institution Letter
LTV       Loan-to-Value
MOU       Memorandum of Understanding
ODCBS     Oregon Department of Consumer and Business Services
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROA       Return on Assets
ROE       Report of Examination
SFRO      San Francisco Regional Office
TARP      Troubled Asset Relief Program
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                         26
